<html>
<title> - CANADA'S FAST-TRACK REFUGEE PLAN: UNANSWERED QUESTIONS AND IMPLICATIONS FOR U.S. NATIONAL SECURITY</title>
<body><pre>[Senate Hearing 114-599]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-599
 
                   CANADA'S FAST-TRACK REFUGEE PLAN:
    UNANSWERED QUESTIONS AND IMPLICATIONS FOR U.S. NATIONAL SECURITY

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS


                             SECOND SESSION

                               __________

                            FEBRUARY 3, 2016

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/
        
        
                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]          
 
 
 
 
 
 
                 U.S. GOVERNMENT PUBLISHING OFFICE
                   
 22-717 PDF                WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001           

        
        
        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin Chairman
JOHN McCAIN, Arizona                 THOMAS R. CARPER, Delaware
ROB PORTMAN, Ohio                    CLAIRE McCASKILL, Missouri
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
MICHAEL B. ENZI, Wyoming             HEIDI HEITKAMP, North Dakota
KELLY AYOTTE, New Hampshire          CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     GARY C. PETERS, Michigan
BEN SASSE, Nebraska

                    Keith B. Ashdown, Staff Director
     Brooke N. Ericson, Deputy Chief Counsel for Homeland Security
              Jose J. Bautista, Professional Staff Member
   Servando H. Gonzales, U.S. Customs and Border Protection Detailee
              Gabrielle A. Batkin, Minority Staff Director
           John P. Kilvington, Minority Deputy Staff Director
     Stephen R. Vina, Minority Chief Counsel for Homeland Security
               Holly A. Idelson, Minority Senior Counsel
       Harlan C. Geer, Minority Senior Professional Staff Member
                     Laura W. Kilbride, Chief Clerk
                   Benjamin C. Grazda, Hearing Clerk
                   
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator Carper...............................................     2
    Senator Booker...............................................    19
    Senator Ayotte...............................................    22
    Senator Tester...............................................    24
    Senator Portman..............................................    27
    Senator Heitkamp.............................................    30
Prepared statements:
    Senator Johnson..............................................    35
    Senator Carper...............................................    37

                                WITNESS
                      Wednesday, February 3, 2016

Guidy Mamann, Senior Partner, Mamann, Sandaluk & Kingwell, LLP, 
  Toronto, Canada................................................     4
David B. Harris, Director, International Intelligence Program, 
  INSIGNIS Strategic Research, Inc., Ottawa, Canada..............     7
Dean Mandel, Border Patrol Agent, Buffalo Sector, U.S. Customs 
  and Border Protection (testifying on behalf of the National 
  Border Patrol Council).........................................     9
Laura Dawson, Ph.D., Director, Canada Institute, Woodrow Wilson 
  International Center for Scholars..............................    12

                     Alphabetical List of Witnesses

Dawson, Laura, Ph.D.:
    Testimony....................................................    12
    Prepared statement...........................................    50
Harris, David B.:
    Testimony....................................................     7
    Prepared statement...........................................    42
Mamann, Guidy:
    Testimony....................................................     4
    Prepared statement...........................................    39
Mandel, Dean:
    Testimony....................................................     9
    Prepared statement...........................................    47

                                APPENDIX

Statements submitted for the Record from:
    Church World Service.........................................    54
    Disciples Refugee & Immigration Ministries...................    55
    Gary Doer, Canadian Ambassador to the United States..........    56
    The Niskanen Center..........................................    59
Responses to post-hearing questions for the Record from:
    Mr. Mamann...................................................    74
    Ms. Dawson...................................................    80


                   CANADA'S FAST-TRACK REFUGEE PLAN:



    UNANSWERED QUESTIONS AND IMPLICATIONS FOR U.S. NATIONAL SECURITY

                              ----------                              


                      WEDNESDAY, FEBRUARY 3, 2016

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:01 a.m., in 
room 342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Portman, Lankford, Ayotte, 
Sasse, Carper, McCaskill, Tester, Heitkamp, Booker, and Peters.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. This hearing will come to order.
    I want to welcome the witnesses and thank you again for 
changing your flights and being flexible here because of our 
snowstorm in Washington, D.C. It is kind of funny because I am 
from Wisconsin. We are used to snow. People say, ``Oh, these 
guys just cannot handle it''. I mean, let us face it. Twenty-
some inches of snow is difficult for any part of the country to 
handle. I am kind of glad that it is melting pretty fast.
    But, again, thank you for coming. I read your testimony and 
I appreciate your thoughtful testimony. I am looking forward to 
a good hearing.
    Let me ask that my written statement be entered into the 
record,\1\ without objection.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 35.
---------------------------------------------------------------------------
    And, I just want to start with a quote. We had a foiled 
terrorist plot in Milwaukee, Wisconsin. It was not Israel. It 
was not Syria. It was not Afghanistan. It was not Iraq. It was 
not San Bernadino. It was in Milwaukee, Wisconsin. And the 
foiled terrorist's name was Samy Mohammed Hamzeh. There were a 
couple of confidential human sources--that is how they are 
referred to--and in the criminal complaint, there are a number 
of quotes from Mr. Hamzeh to these informants, and I just want 
to read you the quotes.
    ``I am telling you, if this hit is executed, it will be 
known all over the world. The people will be scared and the 
operations will increase. This way, we will be igniting it. I 
mean, we are marching at the front of war and we will eliminate 
everyone.''
    Now, this was a plot in the Masonic Temple in Milwaukee, 
Wisconsin. Further in the complaint, Mr. Hamzeh says that he 
would be 100 percent happy if he is able to slaughter 30 human 
beings.
    So, the purpose of this hearing is to take a look at the 
potential threat. We have had 13 hearings on border security 
here in terms of our Southern and our Northern Borders as well 
as our maritime border. I think that the conclusion--and I 
think that most of the Committee Members would agree with me--
is that our borders are not secure. You take a look at the 
danger--the risk.
    I mean, obviously, we have far more illegal crossings on 
our Southern Border. Canada, generally, is not a threat. I go 
fishing up there. You have great walleyes. I mean, I love 
Canadians. We have a very special relationship with Canada. As 
a result, we have a pretty unsecured border with Canada. It has 
just never really represented much of a threat.
    Islamic terror represents a threat. This is real. It is 
growing. This is a legitimate concern.
    We are all compassionate. We want to solve these problems. 
But, we also have to, I think, recognize our responsibility, 
which is doing everything that we can to keep our Nation safe 
and secure.
    And, so, I mean, the fact of the matter is that, when I 
take a look at the history, the number of refugees that are 
resettled in Canada since about 2005, the high-water mark was 
35,000--but it is averaging somewhere between the 20,000 and 
25,000-person range. Well, Prime Minister Trudeau now is 
committed to admitting 25,000, and then 50,000 total, by the 
end of 2016. That is a pretty significant ramp-up and over a 
pretty short period of time.
    In America, it takes somewhere between 18 to 24 months to 
properly vet a refugee, on average--and that is from all of the 
countries that refugees are coming from. It is far more 
difficult to try and get the information--we have heard this in 
testimony before this Committee--in a war-torn country, like 
Syria. So, how can you do the proper vetting? How can we assure 
that there are no shortcuts taken? And, that is really the 
purpose of this hearing, to just let us lay out the reality. 
Will there be shortcuts taken? Is that something that really 
ought to concern Americans here, as Canada is really ramping 
up--and again, all with wonderful intentions, being very 
compassionate--admitting a much higher level of refugees than 
they normally take in and at a much faster pace.
    So, again, I appreciate the witnesses being here and I look 
forward to your testimony.
    With that, I will turn it over to Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thank you, Mr. Chairman.
    Good morning, everybody. It is nice to see you. Thank you 
for joining us today.
    A couple of months ago, in November, our Committee held a 
hearing right here on our country's ability to screen Syrian 
refugees, and, at the time, there was a lot of unease over the 
Syrian refugee population and the security risk that some 
believe that they might pose to us in this country. We learned 
a whole lot at that hearing that day. I will just mention a 
couple of the things that we learned.
    We learned that the screening for refugees takes place 
wholly overseas before a refugee ever sets foot on U.S. soil. 
We learned that the United Nations High Commission on Refugees 
(UNHCR) narrows down the list of potential refugees long before 
the United States ever considers a single application. We 
learned that once we receive a list of pre-screened refugees 
from the United Nations (U.N.), the State Department (DOS) and 
the Department of Homeland Security (DHS) still conduct their 
own extensive vetting, and this vetting includes biometric and 
biographic checks, health checks, and in-person interviews 
conducted by immigration analysts who are trained to spot fraud 
and deception.
    We also learned that refugees are consistently vetted 
against the full repository of U.S. national security 
databases. And, we learned that our program focuses on the most 
vulnerable refugees, mostly children and families. It is no 
wonder that the security experts who testified before our 
Committee that day said that the Refugee Resettlement Program 
(USRP) is probably the last way a potential terrorist would try 
to come to our country.
    What I have said, anecdotally, is that a member of the 
Islamic State of Iraq and Syria (ISIS) would have to be crazy 
or stupid to try to get here through our most closely vetted 
program and wait 2 years to go through the most extensive 
vetting process. Why would you do that when you have other 
options to pursue--including, maybe, going to Canada. We will 
find out about that today.
    But, today, we are going to learn more about the Canadian 
refugee program, and from what I can tell, it looks a lot like 
ours. And, like us, Canada carefully screens potential 
candidates while they are overseas. They also run their own 
security checks. Indeed, those checks include systemic 
consultation with the United States, vetting against our 
terrorism and national security databases under information 
sharing agreements that we have in place with Canada.
    And, it is true that Canada is doing the screening faster 
than usual--but that does not mean that they are doing less 
screening than they previously have done. The Canadian 
government has surged resources to speed up the time of refugee 
processing and states, emphatically, that it is not cutting 
corners.
    In fact, all of the Members of this Committee recently 
received a letter from the Canadian Ambassador to the United 
States laying out the screening process for these refugees in 
close cooperation with our own security and border agencies. I 
would like to place that letter in the record,\1\ Mr. Chairman, 
at this time. I ask unanimous consent for that, please.
---------------------------------------------------------------------------
    \1\ The letter referenced by Senator Carper appears in the Appendix 
on page 56.
---------------------------------------------------------------------------
    The first group of refugees that Canada is reviewing is 
restricted to families, women, and other at-risk populations. I 
should also point out that, with very few exceptions, almost no 
single fighting-age males are being considered in the first 
batch of 25,000 refugees. Moreover, nearly half of the refugees 
are privately sponsored--that is, families or organizations in 
Canada have committed to helping them adjust to life in that 
country and have even agreed to pay to support them for that 
first year. That kind of arrangement can be, I think, very 
helpful in integrating new arrivals and helping to safeguard 
against alienation or radicalization.
    Like our country, Canada has a long, proud history of 
helping refugees. In fact, some of the Southeast Asian refugees 
who were resettled in Canada in earlier decades are now 
stepping up to sponsor Syrian families.
    And, finally, it is very important to point out that it 
would take 4 years before refugees living in Canada would be 
potentially eligible for citizenship and the right to travel 
visa-free to the United States. Until then, they would still 
need a visa to come to our country and then they would be 
subject to fresh screening against U.S. criminal intelligence 
databases before they can cross our border.
    In short, I think that we should support Canada, our ally, 
in doing the right thing in the most secure manner possible 
when it comes to Syrian refugees. And as we do that, let us 
keep our eye on the ball. Vilifying refugees coming to our 
country or to Canada only serves as a distraction from the real 
challenges of defeating ISIS on the battlefield and combating 
homegrown violent extremism (HVE) here, on our shores. 
Providing safe haven for a few of the millions of people 
victimized by ISIS and the Syrian war will not hurt that cause. 
I actually believe that it helps us.
    So, thank you, Mr. Chairman, for holding this hearing. We 
welcome all of you. Thank you for joining us.
    Chairman Johnson. Thank you, Senator Carper, and that 
letter from the Ambassador will be entered into the record, 
without objection.
    Senator Carper. Thank you.
    Chairman Johnson. It is the tradition of this Committee to 
swear in witnesses, so if you will all stand and raise your 
right hand.
    Do you swear the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Mr. Mamann. I do.
    Mr. Harris. I do.
    Mr. Mandel. I do.
    Ms. Dawson. I do.
    Chairman Johnson. Please be seated.
    Our first witness is Guidy Mamann. Mr. Mamann is a Canadian 
immigration lawyer and the foundering partner of Mamann, 
Sandaluk and Kingwell, LLP. Previously, he worked for Canada's 
Department of Citizenship and Immigration and served as 
Immigration Officer at Toronto's Pearson International Airport. 
Mr. Mamann.

TESTIMONY OF GUIDY MAMANN,\1\ SENIOR PARTNER, MAMANN, SANDALUK 
                & KINGWELL, LLP, TORONTO, CANADA

    Mr. Mamann. Thank you very much, Senator Johnson. Senator 
Johnson, distinguished Members of the Committee, and ladies and 
gentlemen, I want to thank you very much for inviting me here 
today to discuss the security implications of and unanswered 
questions about Canada's recent plan to resettle Syrian 
refugees in Canada.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Mamann appears in the Appendix on 
page 39.
---------------------------------------------------------------------------
    As I am sure you are aware from my biography, I am a 
Canadian immigration lawyer who has dedicated his 30-year 
career to bringing all kinds of newcomers to Canada, including 
thousands of refugees. I very much believe that all countries 
should do their utmost to help provide safe harbor to those in 
genuine need of protection.
    You have not asked me here today to champion the cause of 
refugees, but to address your concerns about the security 
implications of Canada's plan. To understand the security risks 
associated with this plan, you must first understand the 
context in which this plan evolved.
    In the months prior to our Federal election this past 
October, Justin Trudeau and his Liberal Party made it a major 
part of their election campaign to bring 25,000 Syrian refugees 
to Canada by the end of 2015. He won the election and became 
Prime Minister on November 4, 2015. This left him only 57 days 
to process and land 25,000 refugees as promised.
    I was asked on national television if this was doable and I 
expressed great doubt that it was. I knew that such 
applications normally take about 62 months, and sometimes even 
longer, to conclude. So, not surprisingly, the target was 
missed when only 6,000 refugees arrived in Canada prior to the 
December 31 target date.
    To date, to complete the shortfall of 19,000 applications, 
the target date has now been extended by 2 months. However, the 
government has also announced that an additional 25,000 
refugees will be brought in by December 31 of this year. 
Accordingly, the initial plan for 25,000 is now doubled to 
50,000 and the original estimated cost of 100 million has now 
been revised to over 1.2 billion.
    This is not a rescue mission--this is a resettlement 
mission. The people who we are helping have already escaped the 
conflict zone and have already reached safety in Jordan, 
Lebanon, and Turkey. We are only relocating them and offering 
them permanent resettlement. We are making no attempt 
whatsoever to rescue people who are actually in Syria and who 
are in imminent danger.
    Accordingly, there is no apparent urgency to the situation. 
Nonetheless, the self-imposed deadlines have been adopted. This 
will undoubtedly put tremendous pressure on our security 
personnel to complete their background checks by the target 
dates.
    Let me address some of the main security issues arising 
from this plan, as you have requested. The Liberal government 
has assured the Canadian public that no security steps will be 
skipped and that all applicants will be fully screened before 
arrival. The Canada Border Service Agency (CBSA), the Royal 
Canadian Mounted Police (RCMP), and the Center for Strategic 
and International Studies (CSIS) have all stated that they are 
up to the task. This was affirmed by the Canadian ambassador to 
the United States, Gary Doer, who wrote to this Committee last 
week in response to the scheduling of this hearing. I have no 
reason, whatsoever, to doubt any of them. I have worked 
opposite--but closely and cooperatively--with these agencies 
for my entire career and I do not doubt that they will not 
intentionally cut corners in order to deliver a politically 
expedient result.
    However, they will be under tremendous pressure to deliver 
an unprecedented volume of work in record time. The performance 
of overseas security checks is a highly specialized field and 
it is difficult--if not impossible--to grow that skill in a 
short period of time. Our government has already deployed 500 
officials to Jordan and Lebanon to help with medical and 
background checks. However, it is unclear what expertise these 
people might have and might bring to the table as well as what 
databases they may have to reference.
    Furthermore, Canada closed its embassy in Damascus in 2012. 
The information that we have is old and many of the government 
offices in Syria that had reliable records have been destroyed 
or have been compromised. In any event, background checks 
cannot eliminate risk. They simply cannot tell us what will 
happen in the future.
    Second, to contain risk, the Canadian plan excludes single 
men. The plan is only open to families, women, and children. 
Again, this measure will certainly help to reduce security 
risks, but it will not eliminate them. Case in point, the 
Boston Marathon bombing in 2013 was committed by two adult 
brothers who immigrated to the United States as refugees when 
they were just children. As for women, women are increasingly 
becoming involved in acts of terror. Again, consider the case 
of Tashfeen Malik and her husband, who sponsored her to the 
United States on a fiancee visa and who, together, killed 14 
people in San Bernadino in December, 2015.
    Third, I have been asked by your staff whether Canada's 
private sponsors might help to mitigate security risks by 
providing monitoring of the families that they have sponsored. 
These private citizens are not trained nor selected for such a 
role. They are simply good Canadians looking to provide 
financial help and settlement assistance. They are not expected 
to play any surveillance function.
    Fourth, I have also been asked about the access that this 
group of 50,000 might have to the United States. As you 
mentioned, as permanent residents of Canada, they will not 
qualify for your Visa Waiver Program (VWP), but will qualify to 
become Canadian citizens in 4 years. Like all other Canadian 
citizens, they will then be able to present themselves at the 
U.S. border and seek admission right at the port of entry 
(POE).
    Having said all of this, as you may know, our respective 
borders remain quite porous. Our checkpoints are only effective 
with respect to people who choose to use them. Many going in 
both directions successfully avoid our checkpoints every day.
    Fifth, Canada passed some very controversial legislation in 
2014 known as Bill C-24. It currently allows our government to 
revoke anyone's Canadian citizenship for serious acts against 
Canada, provided that the person is a dual national and is 
convicted of offenses relating to spying, treason, or 
terrorism. I do not believe that the United States has similar 
legislation. However, Prime Minister Trudeau has now promised 
to repeal those provisions once elected--and I anticipate that 
this will be happening very soon.
    The last, but certainly not the least, source of potential 
concern is the demographics of this particular group of 
refugees. When compared to other groups of refugees, one can 
easily argue that this group represents a relatively high-risk 
demographic. Syria is widely considered to be a major hotbed of 
international terror. Large parts of the country are controlled 
by ISIS, which, sadly, enjoys some considerable local support. 
Virtually the entire country supports one of the three warring 
factions: either ISIS, the Assad government, or the rebels. All 
three groups have been associated with assorted atrocities and 
violations of human rights.
    By definition, refugees do not necessarily come to our 
countries because they share our values. They come to our 
countries because they often have no other choice. Whether or 
not they possess or adopt our values is something that only 
time will tell.
    I would like to identify some unanswered questions for 
Americans to think about, but I think that, due to time, I will 
wait until the question period.
    In conclusion, Senators, the extent to which we help 
refugees and those in need defines who we are as a country. 
Canada has decided to accept 50,000 refugees from the millions 
displaced by the Syrian conflict. While I think that there was 
a better way of handling some aspects of this initiative, the 
cause of helping genuine refugees is a good one.
    Having said that, there are unavoidable costs and risks 
associated with this type of endeavor. Our government believes 
that those risks are manageable. I know that we have 
experienced and dedicated men and women in our security 
agencies who are working feverishly to meet our government's 
timelines. Whether or not our efforts will work out well in the 
end, only time will tell.
    Thank you.
    Chairman Johnson. Thank you.
    Our next witness is David Harris. Mr. Harris is the 
Director of the International Intelligence Program at INSIGNIS 
Strategic Research, Inc. Mr. Harris is a lawyer located in 
Ottawa, Canada with decades of national security intelligence 
affairs experience. Mr. Harris.

   TESTIMONY OF DAVID B. HARRIS,\1\ DIRECTOR, INTERNATIONAL 
   INTELLIGENCE PROGRAM, INSIGNIS STRATEGIC RESEARCH, INC., 
                         OTTAWA, CANADA

    Mr. Harris. Thank you very much, Mr. Chairman and honorable 
Senators.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Harris appears in the Appendix on 
page 42.
---------------------------------------------------------------------------
    As the Committee clearly appreciates, the new Canadian 
government took office committed to fast-tracking the 
resettlement of 25,000 Syrian refugees into Canada between 
early November 2015 and the end of that year. Complications led 
the government to adjust the intake goals to 10,000 before the 
end of 2015 and another 15,000 prior to March 1, 2016. By last 
week, about 15,000 Syrian refugees had entered Canada. Recent 
reports indicate that Canada is expecting to raise its target 
level and take in 50,000 Syrian refugees by the end of 2016. I 
will focus on the core 25,000 number for the sake of expediency 
in the course of this statement.
    Given the threat picture in Syria and the scale of intake, 
security considerations, of course, require thorough attention. 
First, recall that the U.S. population exceeds by nine times 
Canada's 35 million population. Therefore, 25,000 refugees in 
Canada would be the equivalent of 225,000 refugees in the 
United States--all of this by March 1. Britain--almost twice 
Canada's population--will take several years to admit 20,000.
    And the Federal Bureau of Investigations (FBI) Director, 
James Comey, has highlighted the screening difficulties that 
America would face by admitting 10,000 Syrians. He warned that 
information gaps could lead to inadequate screening. If the 
extensive U.S. intelligence system would have trouble security 
screening 10,000 Syrians in a year, how likely is it that 
Canada--even with valuable U.S. assistance--could adequately 
screen 2\1/2\ times that number in 4 months?
    Canada's special fast-track processing of 25,000 Syrians in 
4 months should be compared to the standard, non-fast track 
process 13-month timeline for government-assisted Syrian 
refugees and 27-month timeline for the privately sponsored. 
Note that this 25,000 figure is roughly equal to Canada's 
entire annual refugee intake, traditionally.
    And, remember the risk context. Apart from the accounts of 
suspected ISIS members, that ISIS aims to penetrate 
international refugee streams, a Lebanese cabinet minister 
warned in September 2015 that at least 2 percent of the 1.1 
million Syrians in Lebanon's refugee camps--about 20,000 
people--were connected to ISIS extremism. Canada takes refugees 
from Lebanese UNHCR camps.
    More generally, the Arab Center for Research & Policy 
Studies' polls determined that 13 percent of Syrian refugees in 
Lebanon, Jordan, and Turkey--source countries for Canada's 
Syrian migrants--had positive views of the Islamic State. How 
many more might have favorable views of al-Qaeda, al-Nusra, 
Hezbollah, the Assad militias, and other non-ISIS threat 
groups?
    In some cases, evidence for screening might be available 
if, for example, a migrant's traces have been found on an 
improvised explosive device (IED) in Syria or Iraq or where a 
time-consuming investigation has connected the dots. But, how 
readily can one gain access to a migrant's history when that 
migrant is from a hostile or chaotic country? We cannot 
reliably confer with authorities of such jurisdictions--
assuming authority exists-- about many prospective refugees.
    It is suggested, in Canada, that risk can be mitigated by 
barring unaccompanied adult Syrian males. But, people lie about 
age. Additionally, many males and females below the age of 
majority are in ISIS's ranks. Also, what effect would an adult 
male embargo have on at-risk, adult gay and other males 
targeted by terrorists?
    Meanwhile, when favoring women with children and men with 
families, do we know who is actually married to whom and whose 
children are accompanying whom? Are some ISIS fighters' 
families involved? Would they, in turn, sponsor relatives or 
ostensible relatives?
    Are there safety issues for existing North American 
minorities in a mass movement from a homeland where the 
demonizing of Jews is national policy and life-threatening 
lesbian, gay, bisexual, and transgender (LGBT) persecution is a 
crisis? And what of the importing of people from a region where 
anti-black racism is an especially serious matter?
    Beyond this, secret German government documents reportedly 
claim that refugee numbers should be multiplied by a family 
factor of between four and eight to determine how many more 
migrants will ultimately be sponsored by current refugees. What 
could future refugee to refugee chain sponsorship mean for 
Canadian stability and border security?
    We must also ask what security resources are being diverted 
to the fast-track project at a time when security is already 
burdened by an existing annual immigration intake of almost 
300,000 people--one of the biggest per capita figures in the 
world and at least double per capita American immigration.
    In the past, there have been few newcomers to Canada who 
were crossing the U.S. border for terrorist purposes. But, 
failed millennium bomber Ahmed Ressam as well as Ghazi Ibrahim 
Abu Mezer's 1997 arrest in his Brooklyn bomb factory remind us 
of the cross-border risks. Concern also exists that extremists 
could move north from the United States--about the chronic 
problem of migrants with U.S.-granted visas from Syria, and 
elsewhere, turning up in Canada and making refugee claims.
    Greater transparency in Canada's Syrian refugee security 
process would reassure Canadians and their allies. Fortunately, 
the current Canadian government's stated commitment to 
transparency gives hope that details of the Syrian refugee 
security process will be made public. Indeed, the Canadian 
government, through its Ambassador in Washington, may have 
begun the process with a recent statement. The security-related 
details should include the security criteria used during Syrian 
migrants' security interviews, statistics regarding the 
acceptance and the rejection rates, and the record of time 
spent on the security investigation and screening per refugee.
    There is little doubt that those in Canada tasked with the 
job of screening refugees are doing the best that they can, 
given the constraints. But, the constraints are significant and 
we must be realistic about that fact.
    Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Mr. Harris.
    Our next witness is Dean Mandel. Mr. Mandel is a U.S. 
Border Patrol Agent currently serving in the Buffalo Sector. 
Mr. Mandel has served as a Border Patrol Agent since 2006, and 
prior to his position, he served as Petty Officer Third Class 
for the United States Navy. Mr. Mandel.

   TESTIMONY OF DEAN MANDEL,\1\ BORDER PATROL AGENT, BUFFALO 
   SECTOR, U.S. CUSTOMS AND BORDER PROTECTION (TESTIFYING ON 
         BEHALF OF THE NATIONAL BORDER PATROL COUNCIL)

    Mr. Mandel. Chairman Johnson and Ranking Member Carper, 
thank you for providing me the opportunity to testify on behalf 
of the National Border Patrol Council (NBPC). It is truly an 
honor.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Mandel appears in the Appendix on 
page 47.
---------------------------------------------------------------------------
    The NBPC represents the interests of 16,500 line agents 
with the U.S. Customs and Border Protection's (CBP's) Border 
Patrol. My name is Dean Mandel. I am an active duty Border 
Patrol Agent assigned to the Buffalo Sector. I joined the 
Border Patrol in 2006, after having served in the U.S. Navy for 
4 years.
    We live in a highly connected world, and the tragedy in 
Paris is, unfortunately, an example of how one country's 
policies can impact its neighbors. As someone stationed on the 
Northern Border, I want to be clear, what happens in Canada 
matters to the United States. Whether it be Canadian policies 
toward refugees or immigration, their decisions impact U.S. 
security, given the size and nature of our shared border.
    I started my career on the Southern Border, in Nogales, 
Arizona. In Nogales, we had air support, fencing, cameras, and 
a solid network of ground sensors. Although we never had 
sufficient manpower, in an emergency, we almost always had 
backup.
    On the Northern Border, it is entirely different. Of the 
21,000 agents in the Border Patrol, only 2,100 are assigned to 
the Northern Border. When you take into account supervisors who 
are not in the field, annual leave, sick leave, days off, 
training days, and the fact that we work with a three-shift 
rotation, we only have about 300 line agents guarding the 
Northern Border at any one time. I would estimate that there 
are approximately as many Capitol Police on duty right now 
protecting the Capitol complex as there are on the entire 
4,000-mile Northern Border.
    On the Southern Border, we have one agent for every linear 
mile. Each of these agents is made more effective by the entire 
infrastructure of fencing, cameras, air support, and sensors. 
On the Northern Border, we have one agent for every 13.5 miles 
and we have much less of this infrastructure.
    On the Southern Border, if you ask an agent, they will 
probably tell you that, at best, we are 40 percent effective in 
apprehending illegal aliens and drug smugglers. On the Northern 
Border, I would estimate that the effectiveness rate is a 
fraction of this figure.
    I know that there is significant controversy regarding 
Canada's recent decision to admit 25,000 Syrian refugees. In my 
opinion, it is very difficult to gauge the risk posed by these 
refugees and much of the risk will depend on the screening 
process utilized by the Canadians.
    Candidly, of greater concern to me, from a border security 
perspective, are the over five million foreign visitors that 
enter Canada, annually. Canada is a diversive nation and has a 
per capita Muslim population three times our own. As a result, 
they have major inflows from tourists and business travelers 
throughout the Middle East.
    Canada has a visa waiver system similar to ours, with 51 
countries. The visa waiver system is a huge security gap 
because it is operated under an assumption that if you are, for 
example, from France, then you would pose no security risk. 
Given the number of terrorist cells uncovered in Europe, alone, 
this assessment of risk is completely false.
    Starting in March, Canada will require visa waiver 
travelers to obtain an electronic travel authorization before 
being admitted. This is an important first step toward closing 
the security gap and will decrease our vulnerability. However, 
database checks are only as effective as the database, itself. 
As we saw in San Bernadino, many terrorists simply are not on 
law enforcement's or the intelligence community's radar.
    For visitors from non-visa waiver countries, Canada again 
has a system similar to ours. Applicants are required to submit 
photos, proof of financial support, a return ticket, and a 
police certificate from the country of residence. Although 
Canada takes its immigration laws seriously, like the United 
States, it also lacks a comprehensive visa-tracking system that 
ensures that individuals leave the country.
    Finally, there is the issue of homegrown terrorism. 
Unfortunately, no country--including Canada and the United 
States--is immune from this threat. Given that Canadian 
citizens do not require a visa for visits less than 90 days, we 
are relying heavily on Canadian law enforcement and 
intelligence agencies to identify potential threats.
    Canada is a valued partner when it comes to border 
security. Personally, I wish that we had such a partner on the 
Southern Border. However, we have failed to properly invest in 
our Northern Border. As a result, we are gambling that Canadian 
law enforcement and intelligence effectively uncover domestic 
terror cells and screen over five million visitors, annually, 
for threats. As an American, the idea that we would rely so 
heavily on a foreign government--even one as friendly, 
professional, and competent as Canada--concerns me.
    Please remember that the Paris attackers organized their 
operation in Belgium, right under the noses of the Belgian 
security services. They were able to do this because the 
Belgian security services had been underfunded for years--
despite the fact that it was common knowledge that, on a per 
capita basis, Belgians supplied more foreign fighters to ISIS 
than any other European Union (E.U.) country.
    Northern Border Patrol Agents apprehend over 3,000 
individuals, annually. Given that we only have about 300 agents 
per shift covering almost 4,000 miles of border, I think that 
we are doing a good job with what we have. The problem is that 
we simply do not have enough manpower. We have more agents in 
El Paso than we have on the entire Northern Border.
    The NBPC believes that the current force level of 2,100 
agents needs to be augmented by another 1,500 on our Northern 
Border. This additional manpower will help to decrease our 
almost complete reliance on Canadian law enforcement and 
intelligence agencies for our security.
    Thank you again. I look forward to answering any questions 
that you may have.
    Chairman Johnson. Thank you, Mr. Mandel.
    Our final witness is Dr. Laura Dawson. Dr. Dawson is the 
Director of the Canada Institute at the Wilson Center. 
Previously, she served as a Senior Advisor on Economic Affairs 
at the United States Embassy in Ottawa. Dr. Dawson has taught 
U.S.-Canada relations at the Canadian School of Public Service 
and at Carleton University. Dr. Dawson.

     TESTIMONY OF LAURA DAWSON, PH.D.,\1\ DIRECTOR, CANADA 
  INSTITUTE, WOODROW WILSON INTERNATIONAL CENTER FOR SCHOLARS

    Ms. Dawson. Thank you so much, Senator Johnson, 
distinguished members of this panel, Members of the Committee, 
and ladies and gentlemen.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Dawson appears in the Appendix on 
page 50.
---------------------------------------------------------------------------
    As pointed out in the introduction, I have worked on 
Canada-U.S. relations for more than 20 years as a professor and 
as a policy analyst. I have advised the United States and 
Canadian governments on Canada-U.S. relations. For 3 years, I 
worked as a Canadian analyst at the U.S. Embassy in Ottawa, so 
I watched every day the extent of Canada-U.S. cooperation on a 
range of issues. And, most recently, I became the Director of 
the Canada Institute at the Wilson Center, where our work is 
focused on Canada-U.S. relations. And, while I work at the 
Wilson Center, I live in Washington, D.C., so I am going to 
apologize in advance because I am going to say ``We 
Canadians,'' even though I am a very proud D.C. resident now.
    Canada has no greater friend or ally than the United 
States, and that is a responsibility that Canada takes very 
seriously. Canadian policies are going to differ from those of 
the United States from time to time. We are two sovereign 
countries. It is certain to happen. But, where we are aligned 
is the attention to shared security and to the safety of all 
citizens in our territories. That is a guiding principle of 
Canadian policymaking.
    U.S.-Canada information sharing and security cooperation is 
unmatched between any two countries in the world--hearing about 
Belgium and hearing about France. With our framework of 
agreements on security, border, and law enforcement, Canadian-
U.S. officials communicate directly with each other every 
single day and have well-developed institutional and personal 
relationships. They are picking up the telephone. There is not 
a diplomatic note required. You do not need to send a 
diplomatic envoy. They are picking up the phone and they are 
talking to each other many times a day.
    At the embassy, it is required that foreign visitors--U.S. 
Government officials from the United States--register with the 
U.S. Embassy in the foreign country that they are going to 
visit--and they get tens or hundreds of visits a year. In 
Canada, there are thousands and thousands of U.S. officials who 
come every year for cooperation, for meetings, for dialogues, 
and for joint programming. Please keep in mind that it is a 
different relationship with Canada.
    September 11 (9/11) was a catalyst for a new security and 
cooperation paradigm in Canada. Canadians recognize very 
seriously that an attack on one is an attack on all. The post-
9/11 security measures that were implemented, like the 2007 
Western Hemisphere Travel Initiative (WHTI), were taken very 
seriously. Canadians did not question new security mechanisms, 
new security screening, and new equipment that was required by 
the United States. They just went ahead and did it because that 
was what we needed to do. And under the Western Hemisphere 
Travel Initiative, no one crosses our borders without a 
passport or an equivalent proof of security.
    We have heard about the porous border--and you are right. 
We have great lakes and great fishing, and hundreds of miles of 
the Canada-U.S. border is actually underwater. I do not know 
how you build a wall underwater. We have pieces of the border 
that stretch through mountains.
    So, what do we do about securing that border? What do we do 
about ensuring our security north and south? And, so, the 
principle of perimeter security is really important to keep in 
mind--and we do not hear about this enough. The 2011 ``Beyond 
the Border Initiative'' that was launched by Prime Minister 
Harper and President Obama is based on securing our joint 
perimeter. Rather than having to do so much at the land 
border--and, I agree, Mr. Mandel needs more reserves--we push 
out our joint screening and joint verification to our shared 
territory, so to our air, marine, and rail. We want to have 
full interoperability so that you, as Americans, can be sure 
that someone coming into Vancouver or someone coming into 
Halifax has the utmost level of screening and that this 
security reaches your level.
    So, I have been really impressed by this ``Beyond the 
Border Initiative'' and I would like to see it continue. I 
would like to see Congressional attention paid to it to ensure 
that the ``Beyond the Border Perimeter Initiative'' is a matter 
of priority. New technologies in biometrics and data analytics 
have made this level of cooperation possible, but it is the 
highest level of commitment from both governments that have 
made it a reality.
    It is a myth that the 9/11 attackers entered the United 
States through Canada. In fact, Canadian officials work really 
closely with American officials every single day. ``Operation 
Smooth'' was a joint initiative that led to the arrest of two 
men with al-Qaeda links, who were plotting to derail a train 
running between Toronto and New York in 2013.
    Let us talk about refugees. Canada's Syrian refugee policy 
may differ from that of the United States, but the level of 
attention to security is no less vigilant. No refugee can enter 
Canada before all biometric and biologic data is checked 
against U.S. criminal, immigration, and security databases. 
This is an automatic process. This is not something officials 
can decide to do or decide not to do if it is a busy day. This 
must take place. It is an automatic process.
    According to the State Department, of the 785,000 refugees 
admitted to the United States, only a tiny fraction have been 
arrested or removed from the United States due to terrorism 
concerns--and none of these refugees were Syrian. If someone 
wishes to harm the United States or Canada, entering the 
country as a refugee is a very inefficient way to achieve this.
    But, let us talk about Canadian safeguards against this 
possibility. We have heard that Canada is focusing on low-risk 
groups--families with children, single mothers, and LGBT men 
who have taken refuge in Jordan, Lebanon, and Turkey. Sixty 
percent are women. Twenty-two percent are children. This is not 
the demographic of ISIS.
    Cases are first vetted by the UNHCR and other 
organizations. I apologize, in my written testimony, it says 
just UNHCR. They are vetted through other processes, as well. 
This is a typical process, though. Refugees are then--Canadian 
officials determine which of these candidates meet 
vulnerability criteria and those who do are invited to an 
admissibility interview. If they satisfy officials during the 
interview, then applicants are subject to a full health and 
security screening.
    Ralph Goodale, Canada's Minister of Public Safety and the 
counterpart to the U.S. Secretary of Homeland Security, has 
made it clear that if there is any doubt about an applicant or 
about any of the data, that application will be put aside. And, 
all screening takes place before an individual gets on an 
airplane.
    Yes, 25,000 is a very big number, but it is consistent with 
Canada's historic response to refugee crises. Canada accepted 
more than 250,000 refugees after World War II, 37,000 Hungarian 
refugees after 1956, 10,000 Czechs after 1968, and more than 
50,000 Vietnamese boat people in the late 1980s. Before it was 
even an independent country, Canada was a haven for African 
Americans fleeing slavery. We have a history of accepting 
refugees and making a home for them.
    The government has set a target, but there will always be 
delays. Resettlement is a complex process. But, the Prime 
Minister has been very clear: we will meet our target, but we 
will make sure that we do it right.
    It looks like I am running over the time limit, but I 
wanted to let you know, I was a member of a refugee committee--
resettlement committee--at my church in Ottawa, Canada. It was 
really hard work. It was not just a matter of signing some 
documents. We were engaged with the refugees every single day. 
We made sure that that family got to doctor's appointments and 
dental appointments, that the kids had babysitters, and that 
they had appropriate winter clothing. We made sure that they 
were a part of the Canadian community. It was not just, ``Oh, 
here are some more refugees. Let us drop them in a ghetto in 
the city''. They became part of our community and, as a result, 
have now contributed to Canada.
    Lastly, to return to where I started, Canada is the United 
States' closest ally and largest trading partner. There is no 
relationship that Canada takes more seriously, and I urge the 
members of this Committee to treat that relationship with equal 
seriousness. Canada is not the weak link in the fight against 
terrorism. Rather, it is part of a shared security perimeter 
with the United States.
    Thank you.
    Chairman Johnson. Thank you, Dr. Dawson.
    Again, I want to thank all of my colleagues for joining us 
here today. This is an important hearing. As a result of the 
attendance--it worked pretty well yesterday and we did not 
reduce the time limits. We will keep it at 7 minutes--but I 
will use my gavel. So, I want everybody--witnesses and 
Senators--aware of that 7-minute time limit and let us just 
keep to that so that everybody has a chance to ask questions.
    Dr. Dawson, I just want to comment that I think that we all 
agree that the relationship with Canada is very special and 
highly valued. And, I agree that we all want to make sure that 
we do employ the utmost level of screening--and that is our 
concern. President Obama has the legal authority to let in 
10,000 Syrian refugees. That increases the number of refugees 
in this country by 21 percent, which puts a potential 
management strain and possibly some short-circuiting--or taking 
shortcuts--within that process.
    Canada is looking at--again, if you look at the history of 
resettling 25,000 refugees annually--increasing that by a 
factor of, basically, double. You are going from 25,000 to 
50,000 to potentially 75,000 in one particular year. That could 
put on enormous strain.
    Mr. Mamann--and, by the way, am I pronouncing that 
properly?
    Mr. Mamann. Mamann like salmon.
    Chairman Johnson. OK. You mentioned that, on average, it 
normally takes 5 years to go through this process. Please just 
speak to that.
    Mr. Mamann. There are two processes. If you were on another 
day--not when we are in the middle of an election or involved 
in this particular project--you would be spending about 52 to 
62 months bringing people in, in this fashion, from 
Afghanistan, Somalia, Congo, and Sudan. That is how long it 
would take.
    The inland process--that is where someone comes on our 
shores and declares themselves a refugee and they have a 
hearing before the Immigration Refugee Board (IRB), a hearing 
to determine that they are a refugee. Then they apply for 
permanent residence. They fill out all of the forms. That 
process easily takes 2-and-a-bit years.
    It is done in two stages. The first is a selection 
decision, so that we make sure that you have all of the forms 
ready, that everything is done. And then comes the background 
checks and the security checks. Only after that is completed do 
we have a person who is granted permanent residence.
    Chairman Johnson. So, Mr. Mamann, because you mentioned 
that Canada has deployed 500 personnel to the Middle East to 
start vetting people over there--that expanded perimeter--which 
I think we all agree is a good way of doing it. Are those new 
hires or is that just taking people from the interior and 
moving them overseas to push out the perimeter?
    Mr. Mamann. They are taking people from the interior. In 
fact, my firm does all kinds of immigration work. We are not 
just refugee specialists. It is just a small part of what we 
do. We are getting letters now saying, ``This officer has been 
reassigned to the Syrian project'', so you are not getting an 
answer for the next few months while they tackle those things. 
Those are officers who would be normally doing sponsorships, 
investor applications, and all kinds of professional 
immigration work.
    I should say, if you were to ask me what I think of the 
500, I would tell you that it does not really matter, because 
they are not going to Syria. They are outside of the country. 
The question here is the ability to verify information--and 
sometimes the only way that you can do that is by putting boots 
on the ground. Somebody tells you, ``I am from this town'' or 
``I am from this country''. How do you validate that from 
outside of the country? That is the concern, I think, that 
security agencies have. You do not have anything to measure it. 
The fact that someone had an iris scan or had fingerprints done 
and nothing showed up tells you nothing about what they were 
doing during the conflict and on whose side they fought.
    Chairman Johnson. I have been seeing--and I might be 
wrong--but I have been seeing in the testimony, basically, that 
the manpower that Canada has in these immigration services--
does anybody on the panel have any feel for how many personnel 
generally do the vetting of the approximately 25,000, on 
average, refugees that Canada lets in? Mr. Harris.
    Mr. Harris. No, it is not entirely clear. It can involve 
all kinds of cooperation between different governments and 
agencies. So, as I said, it is not entirely clear, and this 
situation currently throws an enormous random variable into the 
overall challenge, I guess, that we are facing.
    Chairman Johnson. Mr. Mandel, do you have any idea of what 
our counterparts in Canada have, in terms of personnel, to 
properly vet these folks? Or Dr. Dawson?
    Mr. Mandel. I do not. I do not have----
    Ms. Dawson. I do not have a number for you, but I can tell 
you that the Consular Service in Canada is different from that 
of the United States, so that officers who are trained as 
consular officers for all sorts of processing can also process 
refugee applications, whereas in the United States, I 
understand, you need a specialized refugee officer. My 
understanding, as Mr. Mamann was saying, is that a lot of folks 
are being deployed from other offices and that retired officers 
are being brought back into service as well.
    Chairman Johnson. But, you acknowledge, in any kind of 
process, when you increase your workload by double or triple, 
that is going to put pressures on the process, correct?
    Ms. Dawson. I agree entirely.
    Chairman Johnson. One of the things that I have been 
intrigued about with Canada's refugee program is their private 
sponsorship program. I would kind of like to have people just 
speak to that. I mean, to me, that does make an awful lot of 
sense, to bring people in that are sponsored by individuals who 
can support them financially and help them assimilate and 
integrate into society--which is another of my concerns. When 
you dramatically increase the number of people coming in, how 
good is the assimilation process undertaken going to be? Mr. 
Mamann.
    Mr. Mamann. The private sponsorship is actually an 
excellent device. It deflects costs, first of all, from the 
government's shoulders. It also allows people to integrate and 
to feel like they have some sense of family here in Canada. As 
Professor Dawson was saying, the process is quite intimate. The 
families get together. They go to doctor's appointments, etc. 
So, it is a very good way of making sure that people land on 
their feet.
    As I said before in my prepared statement, refugees do not 
necessarily come to Canada, or come to the United States, 
because they have a desire to be here, or resources here, or 
family here. They have no choice. They are running and they 
have to go somewhere safe. So, when you have someone there 
showing you where you apply for a driver's license, where you 
can get English as a second language instruction, when you have 
a place to stay, a doctor you are referred to, or whatever, it 
is a lot better than just having the government sponsor someone 
and putting them on the street.
    Chairman Johnson. What percent of refugees are in that 
program versus a government-sponsored program?
    Mr. Mamann. I would think about half--more or less half.
    Ms. Dawson. I have seen currently 10,000 of the 25,000--
about half.
    Chairman Johnson. OK. So, again, let us assume that you 
have 10,000. The rest will go through a government program, 
probably then, correct?
    Ms. Dawson. Yes.
    Chairman Johnson. I mean, you do not have enough private 
sponsors to handle the 25,000 now. Mr. Harris.
    Mr. Harris. Just as a matter of facts, it may be useful to 
bear in mind that the private sponsorship concept goes back to 
the Vietnam boat people era--and there was a great deal of 
demand to bring in various people. Enormous numbers of 
individuals were brought in, as Dr. Dawson has indicated. But, 
it should be remembered that these people were brought in over 
about a decade. So, that is a significant distinction, perhaps, 
from the current situation.
    Chairman Johnson. OK. Senator Carper.
    Senator Carper. Again, thank you all for your testimony.
    I was interested, Dr. Dawson, when you mentioned that your 
church has taken some interest in the plight of these folks. 
Why is that?
    Is there something about your faith that suggests that you 
have an obligation to do this kind of thing?
    Ms. Dawson. Yes. The United Church of Canada, which is a 
middle-of-the-road Protestant faith--as a community, we felt 
that we had an obligation to be part of refugee resettlement. 
To be clear, I was not involved in Syrian refugee resettlement. 
I was working on African refugee resettlement at the time.
    But, I think that it comes down to the larger sense of 
Canada's identity. Canada has not been perfect in its dealings 
with refugees. Canada turned away Jewish refugees on the MS St. 
Louis during World War II. Nine-hundred-and-eight people were 
returned to the Holocaust. Canadians looked at the images of 
Alan Kurdi, the little boy on the beach this summer, and said, 
``This is not who we are. We are a community of diversity. We 
are a community who accepts newcomers, and we are all 
newcomers--unless you are a member of a First Nations people''.
    Senator Carper. Yes. Let me interrupt you.
    Ms. Dawson. Yes.
    Senator Carper. Thank you. Sometimes, in this Committee, I 
quote Pope Francis, who quotes Matthew 25, which says something 
about, ``When I was a stranger in your land, did you take me 
in? '' Does that have anything to do with the fact that your 
church and the people in your church have an interest in being 
a part of this?
    Ms. Dawson. Very much so----
    Senator Carper. Thank you.
    Ms. Dawson [continuing]. And also----
    Senator Carper. That is all you have to say.
    Ms. Dawson. Thank you.
    Senator Carper. All right. Why is Canada so interested in 
taking in so many people? What is it about Canada? I asked the 
same question--we had a Consul General from the consulate up in 
New York--the Canadian--and I said, ``Why do you guys want to 
take so many people in? '' And he said, ``Well, we need more 
people and we do not have that many people.'' How many people 
do they have in Canada?
    Ms. Dawson. 34 million.
    Senator Carper. Yes, 34 million. But, what is that, about 
one-ninth of our population? So, they are interested in having 
more people, and, I think--so there is more of a willingness to 
take a look at these folks.
    I want to come back to something that you said, Dr. 
Dawson--and something that I said, actually. If I am an ISIS-
affiliated person and I am trying to get into this country and 
do mayhem, why would I take 2 years to get here? Why would I go 
through the most intrusive vetting process that exists to get 
here? What is the logic or rationale for doing that?
    Ms. Dawson. It seems to me that it is a very inefficient 
way to do it, as I mentioned. And, also, I would like to note 
that there is an urgency in bringing these people to Canada or 
to anywhere else. These are children who have not been in 
school for years now. These are families in crisis. If you want 
to radicalize young people, that is the way to do it. But, 
bring them to a community, put them in school, and reintegrate 
them into society--that is the best hedge against 
radicalization.
    Senator Carper. Yes. I served in the Vietnam War and had 
some interest in trying to normalize relations between our 
country and Vietnam back in the 1990s. We have a lot of 
Vietnamese Americans, a lot of Vietnamese, who come here and 
have done remarkably well in their lives and they have been 
great citizens. I am struck by the fact that some of the--what 
is it, 50,000?--people that you all took in from Southeast Asia 
are now serving as host families for the Syrians. Is that true?
    Ms. Dawson. Yes. Serving as host families for Syrians and 
leading some of the refugee programs. And, also, if you go to 
any small town in Saskatchewan or Manitoba, middle of nowhere--
I hope you do not have to go to the doctor, but if you do, it 
could very well be a Vietnamese adult who arrived as a child as 
a boat person. The integration into Canada's small towns has 
been very important.
    Senator Carper. That kind of reminds me of the Golden Rule. 
How do we want to treat other people? Well, the way that we 
would like to be treated. And, so, the Vietnamese certainly 
have had a piece of that.
    Mr. Mandel, you were a Navy Petty Officer. I just want to 
thank you for your service. I did 23 years active and reserve, 
retired Navy Captain. We are grateful for that service as well.
    Another question, if I could, for Mr. Harris and Dr. 
Dawson. When Canada screens refugees or other immigrants for 
possible ties to terrorism, my understanding is that it does 
not just rely on its own security holdings. Rather, as I 
understand it, there is a systematic consultation--this is one 
of the things that was asserted to me by the Consul General the 
other day--with U.S. officials and databases--just as the U.S. 
Government consults with Canadian resources when conducting its 
own checks. Could each of you just describe this information 
sharing a little bit. Mr. Harris, would you just go first, 
please?
    Mr. Harris. Yes, indeed.
    The cooperation and collaboration, as has been indicated, 
is not merely extensive, it is almost astonishing--and 
astonishingly successful in the context of world history. This 
is not hyperbole. This is absolutely the way that things are.
    The challenge that we face is, of course, reality, which 
means that we are only as good as our databases. And, you may 
recall that in his October 2015 testimony before the House 
Judiciary Committee, the FBI Director Comey was pressed on some 
of these related questions and he was asked about databases--
whether there were sufficient ones in the U.S. inventory--
which, of course, we will, at least indirectly, from the 
Canadian perspective, look forward to relying on. He said, 
``The only thing we can query is information that we have. So, 
if we have no information on someone, they have never crossed 
our radar screen, they have never been a ripple in the pond, 
there will be no record of them there and so it will be 
challenging.''
    And, on some other occasion, he went on to have pointed out 
that a number of people who were a serious concern, to use his 
expression, slipped through as Iraq war refugees, including two 
who were arrested on terrorism-related charges.
    Senator Carper. Mr. Harris, I am going to ask you to hold 
it there because I want to give Dr. Dawson a chance to respond 
to the same question, and then I have a real quick one for Mr. 
Mandel. Just very briefly, Dr. Dawson.
    Ms. Dawson. I just want to reiterate that there is an 
automatic check to U.S. databases--criminal, immigration, and 
security databases. It is not an option, it is a mandatory 
check and they are databases that are established and 
maintained by the United States. Canada does not want anyone--
any incident in the United States--to be linked to a lack of 
vigilance on Canada's part.
    Senator Carper. Good. Thank you.
    Mr. Mandel, one last, quick question. From your 
perspective, as a Border Patrol Agent on the Northern Border, 
how extensive is the cooperation and information sharing 
between our two governments, please?
    Mr. Mandel. With the task forces our agents are assigned 
to, the relationship has just been fantastic. Good feedback. We 
actually have been task forced with an International Border 
Enforcement Team (IBET). That was successful. The relationship 
has been good, outside what we have received on the Southern 
Border.
    Senator Carper. OK. I would just say, as one Navy guy to 
another Navy guy--there is a friendly rivalry between Army-Navy 
in this country, as you know, in football games and stuff like 
that, and I always say to my Army friends, ``Well, we may wear 
different uniforms, but we are on the same team.'' And, I think 
that with the Canadians, we may wear different uniforms, but 
clearly, we are on the same team.
    Mr. Mandel. Absolutely.
    Chairman Johnson. Senator Booker.

              OPENING STATEMENT OF SENATOR BOOKER

    Senator Booker. Thank you, Mr. Chairman.
    I really appreciate, Dr. Dawson, what you were saying. I 
mean, there are about 4 million refugees between Jordan, Syria, 
and Lebanon. 50 percent of them are about 18 years old or 
younger. These camps can be breeding grounds for radicalism. 
Just imagine a Middle East with that many young people who are 
not connected to society--not grounded--and what kind of 
radicalization could happen over their lifetimes and what kinds 
of problems they could have. This resettlement of those 
refugees into communities that are nurturing and supportive can 
actually be a preemptive strike against future radicals. So, I 
really appreciate you bringing that up.
    And, I just want to clarify. Perhaps, Dr. Dawson, I can 
start with you. There are a lot of people that keep describing 
the Canadian resettlement process or vetting process as 
expedited, and I am wondering if that is an appropriate term to 
use--that somehow you guys are fast-tracking people or cutting 
corners when it comes to the security of your nation as well 
as, obviously, your partner across your Southern Border, the 
United States.
    Ms. Dawson. Thank you, Senator. I agree, ``expedited'' is 
the wrong word. Enhanced or expanded--absolutely. But, no 
corners are being cut. All of the resources that are necessary, 
as I understand it, are being deployed to ensure that every 
level of scrutiny and verification has been met. Are they 
bringing resources from other areas of government? Absolutely. 
Maybe my taxes will not get processed this year. But, I know 
that they are paying appropriate attention to Syrian refugee 
review.
    Senator Booker. Mr. Mamann, do you agree with that? Is this 
expedited or----
    Mr. Mamann. It is going very fast. I think that we can talk 
about what exact word describes it, but we are asking people to 
do things that they have never done before and in a timeframe 
that they have never used before. As I said before, I have 
worked with CBSA, RCMP, and CSIS--dealt with all of those 
agencies. They are good men and women. They are not going to 
let somebody in because it is 5 o'clock and they want to go 
home. I think that they are going to do their jobs.
    But, when you do that kind of work under that kind of 
pressure--keep in mind that we have a Prime Minister who just 
got elected and this was the crown jewel of his election 
platform--this is a mark that he has to hit and these guys, 
these men and women, are going to be under tremendous pressure 
to get the job done, because the leader of the country has 
asked them to do a job and they are going to do their best to 
do that.
    My concern is that when people are fatigued or when they 
are tired, they are not as effective--and that is something 
that you have asked me to talk about, security implications. 
That would be, in my opinion, the security implication--not 
that our guys are going to cut corners. I do not think that 
they are going to do that. They are just going to be tired.
    Senator Booker. Dr. Dawson, are you worried about fatigue?
    Ms. Dawson. What I am most encouraged by is that, even 
though this is a new government, they have some really senior 
people in Cabinet that they have assigned to the task. The 
Minister of Immigration and Refugees and Citizenship, John 
McCallum, he is a real veteran in government. Stephane Dion, 
the Minister of Global Affairs Canada and the Minister of 
Public Safety and Emergency Preparedness, Ralph Goodale, these 
are people who have been around for many years. They know what 
the right thing to do is and how to do it.
    Senator Booker. And, so, Dr. Dawson, you were talking about 
the databases that are being queried. Are you concerned that 
there is some database sharing that is not going on, that there 
is any cooperation between our two countries, when it comes to 
vetting, that is not happening that should be happening? Do you 
have any concerns in those areas?
    Ms. Dawson. I do not have concerns, but I always would like 
to see an expansion of the level of cooperation and expansion 
of our interoperability as well as greater investment to 
increase security and vigilance.
    Senator Booker. What does that mean, the expansion of our 
interoperability? Is there something that we should be 
concerned with in the Senate, in terms of funding or helping to 
facilitate that?
    Ms. Dawson. Sure. Well, right now, we are looking at 
expanding a pre-clearance program, which would move more 
vetting out to air, marine, and rail. With congressional 
support for that and Canadian Parliamentary support for that, 
that means, basically, that there are U.S. eyes on every 
Canadian port, and I think that that is important.
    Senator Booker. That is great.
    And, finally, Mr. Mandel, thank you for your service. I am 
really grateful for what you do for our country. And you have a 
haircut much better than Senator Tester, so I appreciate that, 
as well. [Laughter.]
    Mr. Mandel. Thank you.
    Senator Tester. Better than yours. [Laughter.]
    Senator Booker. You are just jealous, Tester, and wait your 
turn. [Laughter.]
    So, I just want to know, how critical are a lot of the new 
technologies? We have such a low number of manpower, person-
power, on our Northern Border, and I really want to know about 
what investments you think are critical for us to be making to 
better secure our Northern Border, which, if you are trying to 
run anything--from drugs to sex trafficking--this is something 
that really concerns me overall. I do not think that we are 
making the investment. So much attention is on our Southern 
Border. Could you give me, in the less than 2 minutes that I 
have left, some of your ideas about the things that Congress 
should be really focusing on to secure the Northern Border?
    Mr. Mandel. Augmentation of more agents. Personnel always 
helps. The tools and intel to use the tools. For example, we 
have a radar up in Buffalo that was just implemented. It pings 
off of waves, even, and it is just a standard operating 
procedure (SOP). It is just sitting. We need it--and it can 
track something, but it has to be told to track it and there is 
no intel as of right now.
    So, to me, I think that the answer would be the 
augmentation of the agents--how we are implemented. I think 
that more of us should be in plain clothes. We should be doing 
source, building sources--having force multipliers, reaching 
out to community, and starting community programs, which would, 
in turn, give us intel to use our tools, to use the sensors, to 
use the radar, and to use our manpower. Get those intel agents 
to build sources, and hopefully we can be proactive instead of 
reactive.
    Senator Booker. So, this lack of adequate manpower and some 
of the inadequate technology that you are talking about, as an 
American, what are your fears? What are your concerns that this 
could be leading to as we are speaking right now?
    Mr. Mandel. My worst fear is a terrorist attack. I mean, I 
wake up, I wake up at night about it. After incidents that I 
have seen in San Bernadino and in France, it rocks me, and it 
is my job. I put the uniform on every day. I feel the weight of 
it. I feel the responsibility of it. That is my nightmare. I 
have a family and I have family and relatives across the United 
States. It would impact me greatly.
    Senator Booker. All right. Sir, thank you very much for 
your testimony.
    Thank you, Mr. Chairman.
    Chairman Johnson. Senator Ayotte.

              OPENING STATEMENT OF SENATOR AYOTTE

    Senator Ayotte. Thank you.
    Mr. Harris, I wanted to ask you--I think that the testimony 
here today, and my understanding of it, is that this process is 
being significantly expedited to admit these refugees. Do you 
believe that there are some risks that are created when you 
rush this kind of program, because what I have seen in terms of 
some of the quotes of some individuals who are current Canadian 
intelligence officials--they are saying that there is a clear 
risk given the pace at which security screeners would have to 
work to interview, select, and process such high volumes of 
applicants. And then I have heard other quotes saying that that 
could create vulnerabilities. Our own intelligence officials in 
the United States have expressed concerns about what 
information we have to be able to vet. So, I wanted to ask you 
about some of the risks here.
    Mr. Harris. Thank you, Mr. Chairman. I think that the risks 
are manifest, as has been indicated, and, of course, as many 
experts and many of those who have been explicitly involved in 
the exercise have reflected--I believe that there were remarks 
made by a Mr. Gerry Van Kessel that have been published--and he 
had significant responsibility on the Canadian immigration side 
of things and was concerned about the speed of things and some 
of the priorities and influences that could, in theory, be 
brought to bear. There is the issue of efficacy, as my 
colleague, Mr. Mamann has indicated. When there are so many 
people who are so rushed and might, rightly or wrongly, feel 
under pressure, things can happen.
    And, it may be useful, in this context, to reflect on work, 
not so much by a security specialist, as by an economist. They 
do have their uses, we are told. Irwin Stelzer, who has 
actually done an appraisal on the generous assumption that the 
assessment, for security purposes, of people coming in might 
be, for the sake of argument, 99 percent accurate and reliable. 
What he said, reflecting on the American context of a 10,000 
person intake from Syria, was that, if ``only one percent of 
the 10,000 entrants, or 100 applicants, will have slipped 
through the vetting net,'' then it might be estimated that 
the--I think that he was saying that the units that attacked 
France in November each had about 8 to 20 people on them--
involved in them.
    And, so, if you work on that assumption, you would have, 
for a group of 10,000, at just a 1-percent failure rate, 
between 5 and 8 terrorist units, each capable of doing to one 
of our cities what they had done to Paris. And if you then 
multiply those numbers to the 25,000 contemplated in Canada, 
you could be looking at between 12 and 20 terrorist units of 
the very kind that tore apart portions of Paris earlier this 
year.
    If I may add to this a related humanitarian consideration. 
It has been said that Canada, of course, is rightly proud of 
its traditions with regard to assisting people. However, the 
respected Center for Immigration Studies in Washington has made 
a very interesting point. It says that, now, again, using the 
United States context, and I quote, ``For what it costs to 
resettle one Middle Eastern refugee in the United States for 5 
years, about 12 refugees can be helped in the Middle East for 5 
years, or 61 refugees can be helped for 1 year.''
    And when one considers some of the difficulties that one 
might be dealing with worldwide in the refugee crisis that, 
depending on definitions, could extend to 60 million people on 
the planet, it is even theoretically possible, I suppose, that 
many of those other refugees who will not have the privileged 
treatment that the relative few going to Canada might have, 
might expect something akin to an apology from us for not 
diverting funds from certain Canadian programs to international 
assistance. That, in turn, is relevant in security terms 
because, of course, that kind of diversion of funds would allow 
for more concentration on the security side in Canada and, 
indeed, would allow funds for security per se in Canada.
    Senator Ayotte. Thank you.
    I wanted to also follow up on the issue--I represent New 
Hampshire and we are a State, of course, that borders Canada. 
By the way, we do a lot of important economic trade with 
Canada. I trace my own roots to Canada a bit, with ``Ayotte'' 
as a last name.
    So, I wanted to ask about this issue in the context of the 
border. With tens of thousands of newly arrived individuals, 
what are ways that Canada can ensure that there is close 
information sharing and that refugees are not able to cross the 
border into the United States? Do you think that there are 
going to have to be any changes made there on the U.S.-Canadian 
border? Is that going to put some more pressure on local agents 
there, who, I know, work very hard? So, I wanted to get your 
thoughts on that.
    Mr. Mandel. I would like to venture that we need to get 
communication--more communication. I talked about intel 
earlier. There is intel, but there could be more. And, it will 
not take much--one or two to come across, sneak across, and do 
a lot of damage. So, I think that the communication lines need 
to be bolstered. The relationships that we have have been good, 
but I think that everything could just improve--and possibly 
more task forces, as well.
    Senator Ayotte. So, it is something that we are going to 
have to focus on and----
    Mr. Mandel. Absolutely. The awareness of what is going on 
there, the daily happenings--I think that our agents need to be 
aware of the intel--keeping the agents up to date, up to speed 
on what is going on.
    Senator Ayotte. Well, that is helpful, because Senator 
Heitkamp and I have a bill that is focused on our Northern 
Border and making sure that we are focusing on ensuring that 
that border gets attention and that we are properly ensuring 
that that communication exists. So, we passed it out of this 
Committee. I am hoping that we might get that passed in the 
Senate this year, and so I appreciate all of you being here 
today.
    Thank you, Chairman.
    Chairman Johnson. Thank you, Senator Ayotte. Senator 
Tester.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. Thank you, Mr. Chairman.
    And, Senator Ayotte, when you said ``bit,'' it was a dead 
giveaway with the Canadian connection, I have to say. 
[Laughter.]
    Senator Tester. I want to thank you folks for being here 
today. I very much appreciate your testimony and I very much 
appreciate our friends to the north. Coming from Montana with a 
550-mile border, I can tell you that I often have more 
connections with the folks in Alberta and Saskatchewan than I 
do with the folks east of the Mississippi. So, we thank you 
very much for living in a great country, because, quite 
frankly, I have a great appreciation for Canada.
    I do not know if any of you can answer this question, but 
we talked about 300 agents on the Northern Border, from a U.S. 
perspective, at any one moment in time. Can you tell me how 
many agents Canada has on its Southern Border at any one moment 
in time? Yes.
    Mr. Mandel. From personal experience, once in a while we 
have someone who is running out of status in the United States 
who will go across the border.
    Senator Tester. Yes.
    Mr. Mandel. Canoe, raft, or swim across the International 
Railroad Bridge and the reaction time has been good. It could 
be better, but they do not have anybody there. Usually, the 
Ontario Provincial Police (OPP)----
    Senator Tester. Yes.
    Mr. Mandel [continuing]. Get over. But, sometimes, the time 
could be----
    Senator Tester. But, what about the number of agents 
serving on that Southern Border? Do we have any idea how much 
Canada invests in that?
    Mr. Mamann. I would suspect it is a lot less than that.
    Senator Tester. Less than 300?
    Mr. Mamann. I would think so.
    Senator Tester. No kidding? That is surprising. Well, that 
is good to know.
    Mr. Mandel, you talked about how, in March, Canada was 
going to institute some changes to their Visa Waiver Program. 
Could you go through that, again, briefly, because I just want 
to catch it again, because you had it in your remarks. What are 
they going to do?
    Mr. Mandel. The Electronic Travel Authorization (ETA). So, 
electronically, you have your application prior to coming in 
and during your travels. So, hopefully, that would decrease the 
amount of risk.
    Senator Tester. OK, and you said that that is a first step, 
correct?
    Mr. Mandel. Yes.
    Senator Tester. So, tell me what they are going to do come 
March compared to what we do with the visa waivers. Is it as 
good a system? A better system? A worse system?
    Mr. Mandel. I think it----
    Senator Tester. Go ahead.
    Mr. Mandel. Comprehensive--it lacks comprehension. For 
instance, we have different databases that I use daily. They do 
not tell me when someone overstayed a visa. So, it does not 
give a red flag and I need to go find them or----
    Senator Tester. Right.
    Mr. Mandel [continuing]. Keep track of their 
accountability. It just goes, and they have overstayed. They 
are doing something nefarious. It does not alert me. So, I 
think that the lack of comprehensiveness is the issue at hand.
    Senator Tester. From our side?
    Mr. Mandel. Yes.
    Senator Tester. OK.
    Mr. Mandel. Yes, and working with Customs and Border 
Protection----
    Senator Tester. I know that it would be unfair for you to 
talk about--and, by the way, we need to deal with that to make 
sure that those database red flags come up.
    Dr. Dawson, can you talk about it from the Canadian side, 
as far as the visa waiver program and how concerned you would 
be about that and also whether Canada has taken the proper 
steps to ensure security through that program?
    Ms. Dawson. From my perspective, Canada has been working 
hard to ensure that it can line up its programs with that of 
the United States. So, for example, the Electronic Travel 
Authorization (eTA) program----
    Senator Tester. Right.
    Ms. Dawson [continuing]. That is a really good addition for 
Canada. I know that in the context of Mexico, Canada had a very 
strict visa requirement----
    Senator Tester. OK. Good.
    Ms. Dawson [continuing]. And now they are recognizing a 
U.S. visa plus the eTA for Mexicans coming to Canada.
    Senator Tester. OK. Mr. Harris brought up the point that, 
when we do this vetting, if there are no records, how do we 
know that the wife is really the wife and that the kids are 
really the kids. Could you respond to that? In the case where 
there are no records----
    Ms. Dawson. Sure. All I can respond to is that they are 
already dealing with very low-risk demographic groups, women 
and children. They are dealing with folks who have been in 
refugee camps for a long period of time. So, these are the 
people least likely to be radicalized. You can never eliminate 
risk, but you can use sound risk-assessment models.
    Senator Tester. OK. Thank you.
    And, we will stay with you, Dr. Dawson. Can you tell me, 
and ``expedited'' may be the wrong word, but can you tell me 
how much time is being reduced? There were figures thrown out 
of 55 to 65 months to begin with, and then inland was 2-plus 
years. What are we looking at?
    Ms. Dawson. I am afraid that I cannot answer that question.
    Senator Tester. OK. Can you, Mr. Mamann?
    Mr. Mamann. Yes. The process for which, Senator?
    Senator Tester. Well, for vetting the refugees.
    Mr. Mamann. The current refugees?
    Senator Tester. Yes, the 25,000 that are going to be 
brought in.
    Mr. Mamann. So, here is the situation. By December 31, we 
had 6,000 come in. The target was 25,000.
    Senator Tester. Right.
    Mr. Mamann. They did not go from start to finish. Those are 
people who were sitting around waiting for the finalization of 
their applications. So, we are just talking about the very last 
little piece of it.
    Senator Tester. OK.
    Mr. Mamann. So, that is how we got 6,000 in.
    Senator Tester. OK.
    Mr. Mamann. But, you could not draw from that the 
conclusion----
    Senator Tester. Right.
    Mr. Mamann [continuing]. That it only took 57 days----
    Senator Tester. Got you.
    Mr. Mamann [continuing]. To do from start to finish. So, 
now, the tough part is going to begin, because all of the easy 
cases, the ones that were sort of 90 percent of the way down 
the pipe, have already been processed and they brought them in 
as quickly as we can. Now, the question is, the remainder are 
people who may or may not have even been selected----
    Senator Tester. OK.
    Mr. Mamann [continuing]. Or had the background checks 
started.
    Senator Tester. Got you.
    Mr. Mamann. So, we really do not know what it is going to 
be.
    Senator Tester. All right. Sounds good.
    Just one quick comment for Mr. Mandel on the points that 
you mentioned that we need on the Northern Border. I agree 100 
percent. I think that the interoperability portion is also one 
that we need to include in that. But, we need more agents. We 
need radar. We need more technology. We need more cooperation 
with local government agencies and we need community programs. 
And, I appreciate you saying that because you took the words 
right out of my mouth, so thank you.
    I would just say one thing in closing. First of all, thank 
you all for your testimony. We invaded Iraq some 15 years ago 
looking for weapons of mass destruction. The result of that has 
been, quite frankly, a Middle East that is a mess. These 
refugees do not have any homes. They have been destroyed. And, 
I especially want to bring up the point that Dr. Dawson made, 
and that is that the best way to radicalize people is to not 
reintegrate them into a society. We have an obligation to 
figure out how to do this and how to do this right for the 
safety of this country, but we cannot ignore it, because if we 
do, we are not doing anybody any favors on this earth.
    Thank you, Mr. Chairman.
    Chairman Johnson. Senator Portman.

              OPENING STATEMENT OF SENATOR PORTMAN

    Senator Portman. Thank you, Mr. Chairman.
    I do not have quite the border that Senator Tester has with 
Canada. We have 149 miles. We are proud of that. And we have a 
great relationship with Canada, and I agree with what Senator 
Tester said about the need for us to do more to protect that 
border.
    Our 149-mile border, as you know, is a water border, and so 
it is a little different than a land border, but it has 
substantial risks. Right now, the way in, which you help to 
enforce, is, I think, problematic. If you come across Lake Erie 
with a boat, you are supposed to enter into what is called the 
Outlying Area Reporting System (OARS). You dial into one of 
eight OARS landing locations that are in Ohio.
    And, I have talked to your colleagues, Mr. Mandel. They 
cannot tell you how many people actually comply with that or 
not. We have thousands of places for people to dock, and then 
we also have people that can just dock in shallow water. So, 
only having eight makes it hard.
    They are also able to fill out what is called the Form I-
68, which provides information and then is filed. The problem 
with both of these is that you do not capture the people who 
are on board the boat, either. So, the OARS system, you do not 
know if the person that calls in is reporting the crew or the 
content of the vessel.
    So, it is riddled with holes and one way that you check it 
is through air assets--and I am told that your CBP air assets 
have been reduced in the Lake Erie region, so it is harder to 
monitor.
    So, again, you talked about only having roughly 10 percent, 
as I heard your numbers, of agents on the Northern Border 
compared to the Southern Border, even though the Northern 
Border is about twice as large. And, I would just say that, 
even in Ohio, where you would think that you have this great 
body of water to deter people from coming over, we have a lot 
of traffic back and forth--commercial traffic, recreational 
traffic, and so on. It is very difficult for us to be able to 
monitor that.
    So, part of my question to you, Agent Mandel, if you do not 
mind and if you have any comments on this, are the ways in 
which we could do a better job of ensuring that we do not have 
a problem coming across our water. Do you think that the I-68 
Form and the OARS System can be improved? And, do you have any 
comments about what we face in Ohio?
    Mr. Mandel. The difference between the Southern Border and 
the Northern Border, to start, is that the Northern Border, 
with the Great Lakes and Niagara Falls--the border is the 
attraction--so we get a lot of clutter, as you spoke of. The 
reporting--they come over with visas, using the Visa Waiver 
Program, and there is so much clutter. So, if you have a 
lookout, you are doing some surveillance, and you also want to 
consider those people being reporters and force multipliers--
they see something, they say something.
    So, I weigh out my suspicion level, basically, versus 
aggravating someone and making someone not report something and 
making law enforcement an enemy again. So, I weigh all of these 
things out.
    I think that the communication could always improve between 
the Canadians and us. It is fantastic. But, the clutter and the 
amount of people that are there--it is very hard to track. So, 
I think that the answer is the infrastructure, the radar, and 
more augmentation of agents, our posture changing into more 
intel-related. These organizations communicated through social 
media--encrypted. They get on video game sites and talk while 
playing video games. It is a different animal than it is down 
South, where they are making money up North--even down South. 
But, up North, with these possibly radicalized people, they are 
not looking to make money. They are interested in creating 
terror and chaos.
    Senator Portman. I think that what you are describing----
    Mr. Mandel. I hope that I answered your question, sir.
    Senator Portman. No, it is very helpful. You are giving 
some context to it. And, you are right. A lot of those, let us 
say, visa waiver holders, visa holders, or tourists who would 
come, as you say, to an attraction like Lake Erie--or you 
mentioned Niagara Falls--so, that makes it even more 
challenging for you. I mean, you just laid out the huge 
challenge that we have. And, I am for more resources along the 
border. I think that that would be helpful. But, as you are 
saying, even with that, it is going to be very difficult for us 
to know what is going on on this vast border--even our water 
border.
    And, I guess that that gets to the point that, if Canada 
does have a more aggressive refugee program and they are 
accelerating that program--or not doing the vetting that we 
might do--that puts us more at risk. That is sort of our point 
here this morning and why we wanted to have this hearing.
    The one thing that we have not talked about as much, Mr. 
Chairman, and I know that this is not a hearing to talk about 
the international side, but it is all relevant, I think, and 
Mr. Harris, I think, made a really good point. I never heard 
the economic analysis before. He said that you can support one 
refugee here--and I would assume that that would be true for 
Canada or the United States, and that the resources are 
probably similar--Mr. Mamann can tell us that, if they are 
similar--versus 12 refugees overseas by supporting 
international efforts on refugee resettlement.
    And, I have supported this ``no fly'' zone, for instance, 
in Syria. Someone talked earlier about the 4 million refugees. 
We are talking about 4 million people fleeing their homes and 
we are talking about how we can come up with a security system 
to be able to deal with 10,000 in the United States or 25,000 
in Canada. So, it is a drop in the bucket. And, could you help 
much more internationally? Canada does help already. The United 
States does help. Probably per capita, Dr. Dawson, Canada is at 
the top of the list, I would think. They have been 
traditionally.
    But, I think that this is something that we have to focus 
on more. How do you resettle people in these other countries in 
the region, Arab countries, in an appropriate way? How do you 
ensure that these refugee camps are not places where you are 
spawning more radicalization?
    And, finally, how do you keep them at home? There was an 
interview not long ago. They interviewed one of these refugees 
from Syria and said, ``Would you rather go to the United States 
or Europe?'' hoping that they could figure out where this 
person would rather go. And, of course, the answer was, ``I 
would rather go home.'' I mean, these people do not want to 
leave their homes, and they--I do not know, Mr. Mamann or Dr. 
Dawson, you might want to comment on that, but how do you keep 
people from this radicalized environment by getting them 
resettled overseas? I think that that is the bigger challenge 
that we face, if you really want to help the people who we are 
talking about today.
    Mr. Mamann, do you have any thoughts on that?
    Mr. Mamann. A very small percentage of the applicants that 
were contacted by Canadian officials actually took up the offer 
to come to Canada. It is only about, when the poll was taken, 
maybe 6 percent. You are absolutely right. People do not 
necessarily want to leave their home, their culture, the sounds 
of their home, the food of their home, and the language of 
their home. It is not their first choice.
    With respect to the economic argument that my friend, Mr. 
Harris, was talking about, this began with a $100 million 
pledge to help a certain group of people. We are now talking 
about a $1.2 billion project--and we have not even ramped up. 
We have no idea where that is going to go.
    So, if you were to ask me, would that money, as Mr. Harris 
suggested, be better used overseas to help even more people to 
stay where they want to be, in the regions that they want to be 
in, to find a regional solution, to provide proper shelter, 
proper schooling, and proper education with our friends in the 
United States--and put that together, work together, and 
eliminate whatever ideological risks--terrorist risks--that 
Officer Mandel talked about, there is a discussion to be had 
there. I am not sure if that is the way that we should go or 
the way that we want to go, but that is a discussion that I 
think needs to take place as allies and partners.
    Senator Portman. Thank you for the indulgence, Mr. 
Chairman. I am over my time, but thank you all for your 
testimony. I appreciate it. And thank you, Mr. Chairman.
    Chairman Johnson. And again, I agree. That is a very 
important point. Take a look at that $1.2 billion. Another 
point we are not really making----
    Mr. Mamann. Well, that is Canadian. I am not sure it is 
worth much up here, but---- [Laughter.]
    Chairman Johnson. It is a lot of money.
    Senator Heitkamp. Take it times 70. [Laughter.]
    Chairman Johnson. It is a lot of money.
    The other point that we really do not make enough is that 
Sharia law is not particularly compatible with Western 
democracies, and part of assimilation is coming in and 
assimilating into our rule of law. And, that is, again--it is 
kind of something that is never really mentioned, but it is a 
real problem. Senator Heitkamp.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. I frequently get mistaken for a Canadian, 
so you will recognize the accent. No mistake there. North 
Dakota has a long border. We have the Grand Forks District, 
which houses one of the regional operations. In a previous 
life, I was the Attorney General (AG) responsible for running 
something called the Bureau of Criminal Investigation (BCI), 
which held, on a regular basis, intel sessions all across the 
State of North Dakota on the topic of the border. Royal 
Canadian Mounties were invited, as were the local Canadian 
officials, border security, and Border Patrol. So, I want to 
give a fairly accurate picture of the great collaboration and 
work that is being done on the Northern Border.
    But, with that said, we have taken our eyes off of the 
Northern Border. It was painful during the discussion on 
immigration reform, when I tried to take some of the discussion 
to the Northern Border, only to be shut down in terms of 
resources. This is why Senator Ayotte and I got together to, 
basically, introduce a piece of legislation to let us look at 
what the challenges are.
    Now, I have just a couple of questions. The refugees that 
come get a permanent resident card, correct? And that permanent 
resident card, if you are going to come into the United States, 
would require a visa application. Is that correct, Dr. Dawson?
    Ms. Dawson. That is correct.
    Senator Heitkamp. So, on the POE, if, in fact, that is a 
Syrian or a refugee from a country that we think may have 
radicalized that person before they entered the Canadian 
refugee system, that person would not be given entry into the 
United States unless they went through the visa application 
process.
    Ms. Dawson. That is correct. And it would be U.S. officials 
that would make that determination.
    Senator Heitkamp. That is correct. So, they would look at 
any information. And, so, as we are talking about visa 
waivers--and, obviously, one of the great security gaps that we 
found is the Visa Waiver Program. Every panelist who has come 
before us and talked about refugee radicalization has basically 
said that refugee resettlement is a process that is long enough 
and is robust enough that it is not something somebody who 
wants to do harm would do. They would find a way to get in 
under a visa waiver program. And, so, it is good to hear that 
the Canadian officials are now undertaking the same kind of 
scrutiny that we are looking at.
    So, Dr. Dawson, can you tell me what the equivalent to the 
Visa Waiver Program is in Canada? What are you guys doing? You, 
obviously, are part of our Visa Waiver Program, one of 51 
countries. Let us say that you have somebody who wanted to come 
to study in Canada--or said that they wanted to--or came on a 
wish to be a tourist. They qualified, if they are French, for a 
visa waiver, right?--or to not require a visa? What are you 
doing now that would be a comparable increased security 
provision like we did with the Visa Waiver Program?
    Ms. Dawson. I am going to defer that question to possibly 
Mr. Mamann as an expert in----
    Mr. Mamann. If you are a French national or a British 
national, you just hop on a plane and come to Canada.
    Senator Heitkamp. And you guys have not changed that 
system?
    Mr. Mamann. No. We have a list of countries that are visa 
exempt. Those are usually friendly countries, countries that 
are more developed countries, and richer countries, because we 
make the assumption that a person coming from that country is 
welcome and is going to return to that country because there is 
no economic reason to overstay and work here.
    Senator Heitkamp. And that is one of the concerns that I 
have. I mean, let us take the refugees--same scenario here. Who 
is more likely to want to come to Canada and then find access 
to the United States, somebody who comes in as a refugee or 
somebody who came in with a visa waiver?
    Mr. Mamann. Right.
    Senator Heitkamp. And, is Canada looking at doing something 
like we did, which is say that, if you have been in Syria or if 
you have been in Iraq within the last 5 years, you actually 
have to apply for a visa?
    Mr. Mamann. Right. So, we do not really have that system. 
The eTA system, from what I understand, is going to be--of 
course, I have no experience with it because it has not been 
implemented yet----
    Senator Heitkamp. It is new, yes.
    Mr. Mamann [continuing]. But the idea is that, when a 
person comes to the border, like when I used to work at the 
airport, you are seeing them for the first time. You are sort 
of caught off-guard. You look at their passport, you do 
whatever checking that you can do, and you have to move them 
along. I mean, you cannot keep people held up all day.
    So, the eTA program is going to require you to register 
online, and hopefully, that will give the Canadian authorities 
some advanced notice that this person is coming. Maybe we will 
check with our American partners and say, ``Hey, do you have 
anything on this? '' Maybe it will happen electronically or 
manually. I am not sure.
    Senator Heitkamp. We will probably follow up with the 
Canadian officials, because ``maybe'' is not good enough for 
me.
    Mr. Mamann. Right.
    Senator Heitkamp. I want to know exactly what that means. 
Is that just a step that you think will be a deterrent to 
somebody coming because they think that they might get caught? 
Or is that something where you are actually going to scrutinize 
the people who come to the country?
    Mr. Mamann. I do not think that it is going to be a 
deterrent. It is going to give you a little bit more time to 
think things through. Why would I be deterred? I will go on my 
computer. I will put in my name and my passport number----
    Senator Heitkamp. Well, but if you think that you have a 
record somewhere where, actually, they could trace back your 
bad behavior----
    Mr. Mamann. Right. But, most people--if you take a look at 
even the 9/11 situation--no one had negative records.
    Senator Heitkamp. Right.
    Mr. Mamann. I believe that people who have negative records 
are less of a threat to a company for a major terrorist attack 
because they are easily detectable. A person who has a clean 
record, that is the person that----
    Senator Heitkamp. Who is going to be----
    Mr. Mamann [continuing]. Who is going to create problems.
    Senator Heitkamp. No, I get that. I am just saying that 
that is one of the fallacies of all of this, that we are going 
to know for sure whether, in fact, somebody is intending to do 
harm, basically, by looking at biometrics, and basically, 
looking at all of the advanced data. And, so, that is our 
concern.
    And then the point becomes, what happens at the border? I 
mean, I sat down with a county sheriff from Minnesota, the same 
situation that Senator Ayotte was telling me is in New 
Hampshire. It is wooded. Anyone can walk across the border. I 
flew Senator Carper up to the Northern Border and people farm 
around the border lines. I mean, it is very porous.
    But, I also want to make one final point, which is that, 
because we are dealing with a neighbor that is trusted, that 
culturally is similar, it is not similar, in that way, to the 
Southern Border. We have an opportunity to double force by 
working closely with our Canadian neighbors. We are doing that 
in Portal. We are doing that in Grand Forks and Pembina. But we 
need more people and we need more resources if we are going to 
have situational awareness on the border.
    And, so, thank you for your work. You are welcome any time 
in our district. Officer Mandel, we would love to put you in 
Portal. If you do not know where that is, it is next to 
Montana. [Laughter.]
    Thank you so much, Mr. Chairman.
    Chairman Johnson. And then, he could just walk across the 
border. [Laughter.]
    Thank you, Senator Heitkamp.
    Senator Carper has one question that hopefully he can ask 
quickly and that can be answered quickly. And then, I will give 
each of you about 30 seconds for just a final comment before we 
close out the hearing. Senator Carper.
    Senator Carper. Thank you, Mr. Chairman, and again, our 
thanks to each one of you for joining us today and for your 
testimony.
    The Chairman and I, as well as some other colleagues, had 
breakfast yesterday with Secretary Jeh Johnson, and among the 
things that he reviewed with us were the priorities of the 
Department--the priorities of the Administration--and their ask 
in terms of authorizing legislation and appropriations. One of 
the initiatives that we talked about was a community 
partnership countering violent extremism (CVE), and it would be 
an agency within the Department of Homeland Security whose job 
it would be to work out--to reach out, particularly, to the 
Muslim community in this country, the faith-based 
organizations, through NGOs, and others to try to find ways to 
partner--not locking people up, but actually to partner and 
encourage people not to become radicalized, especially young 
people. They would help develop almost like a messaging 
campaign for young people who have no interest in being 
radicalized, a message to those who might be sensitive to that 
or attracted to that.
    Doctor, when you talked to us about how these families 
actually adopt and welcome families, that is a great way to 
assimilate people into a country and make them feel comfortable 
and part of a community. I do not know how much of that we do 
in this country. I think that that is a good thing that we 
could learn, maybe, from you. If we are not doing enough, we 
could do more.
    Do you have any thoughts or comments on this idea, the idea 
of a community partnership countering violent extremism as a 
unit within the Department of Homeland Security? You or anybody 
else, please comment just very briefly.
    Ms. Dawson. I think that it is an excellent idea. I think 
that it begins at the community level. We have talked about 
faith-based communities. The Christian, Muslim, and Jewish 
communities in Canada have been very active in this. New 
technologies and young people have all contributed to making it 
easier and better in Canada.
    Senator Carper. Mr. Mandel, last comment.
    Mr. Mandel. Yes. I am actually one of the instructors at 
the Citizens Academy up in Buffalo, and we are thinking about 
an explorer program, as well. I recently went to a mosque and 
we brought ourselves, CBP, and the Office of Air and Marine 
Operations (AMO). It was a fantastic experience. It went well.
    Knowledge and getting to know each other--I was over in the 
Middle East, in Bahrain, being a gate guard with Middle 
Easterners. It just comes down to being good people and getting 
to know each other. Here, we are on the same team and on the 
same side. It builds tolerance.
    Senator Carper. OK. Thank you.
    Mr. Mandel. And understanding.
    Senator Carper. Yes. Thank you both.
    Chairman Johnson. Thank you again.
    Briefly, a final comment in 30 seconds. Mr. Mamann, do you 
have a closing comment?
    Mr. Mamann. Sure. We started off, Senator Johnson, by 
talking about an ideology. We were talking about radical Islam. 
Ideology is not something that you can stop at a border. I 
think that we really need to rethink this whole idea of how you 
fight an ideology. You can go on the Internet and pick up an 
ideology without ever crossing a border.
    An undue emphasis on building walls and visa requirements 
is not going to stop that. You can grow this ideology at home. 
You can transmit it via the Internet. You are going to have to 
develop more modern tools than just issuing visas, because 
visas--getting no negative hits on a background check does not 
tell you anything about what is in someone's mind. So, you need 
to rethink how to approach this thing.
    Chairman Johnson. It is a long-term, complex problem. Mr. 
Harris.
    Mr. Harris. Thank you, Mr. Chairman. I would suggest that 
it is time for us, in Canada, to really revisit our immigration 
and refugee numbers, at large, so that we can ensure that we 
have the kinds of integration that really will count. I work 
very closely with any number of Canadian Muslims, including 
through the Council for Muslims Facing Tomorrow. I am on their 
advisory board, though I do not speak for them.
    And members of that organization have counseled enthusiasm 
and encouragement on the idea of outreach, but also a great 
caution to media, to politicians, and to police and security to 
do their due diligence, because there have been some signal 
failures in Canada, as in the United States, where undesirable 
organizations have been able to have legitimacy conferred upon 
them through their being beneficiaries of outreach.
    So, I would simply offer that caution and the reminder 
that, of course, Canada and the U.S. have the closest 
imaginable relationship where security--and not just security--
is concerned, and it has been a very successful one. One 
expects it to continue.
    Chairman Johnson. Agent Mandel.
    Mr. Mandel. I have been to Canada countless times. I grew 
up in Buffalo--born and raised--and across the border, and I 
have been up through Toronto. We plan on going up to Montreal 
this summer, my wife and I. I have had a long relationship with 
Canada. I absolutely love the country. I hate to see anything 
horrible happen on either side.
    I think that the Syrians--if there is a threat that comes 
out of there--it is just the tip of the iceberg, as compared to 
the criminal element that is around that could radicalize 
them--or in the United States, as well. So, personally, I hate 
to see anything happen across our border--our shared border.
    Chairman Johnson. Dr. Dawson.
    Ms. Dawson. Without being cute, the United States is more 
of a risk to Canada than Canada is to the United States. The 
only way to get into Canada is across the Atlantic or the 
Pacific Ocean or across the Pole. So, while the border will 
continue to be porous because of necessary geography, we really 
need to work together--Canada and the United States--to ensure 
that our shared space is defended and secured. And please, in 
your endeavors, make Canada your partner in this work.
    Chairman Johnson. OK. Again, I want to thank all of the 
witnesses for your time and testimony, and for your thoughtful 
answers to our questions. Again, I think that we have kind of 
laid out a reality here, which is important.
    The hearing record will remain open for 15 days, until 
February 18 at 5 p.m. for the submission of statements and 
questions for the record.
    This hearing is adjourned.
    [Whereupon, at 11:41 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                                 <all>
</pre></body></html>
